No. 20-740

 

IN THE
Supreme Court of the United States

 

JIM BOGNET, et al,

Petitioners,
Vv.

VERONICA DEGRAFFENREID, ACTING SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, et al,

Respondents,

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

 

CERTIFICATE OF SERVICE

I certify that on this 15th day of March, 2021, Respondent Luzerne
County Board of Elections’ Brief in Opposition was served on all parties

via the Court’s Electronic Filing System.

Executed on March 15, 2021.

Joseph M. Cosgrove

Counsel of Record for Respondent Luzerne County Board of Elections

 
